No.
In The

Supreme Court of the United States
JESSIE E. SHELTON,

v.

Petitioner,

ROBERT C. TANNER, WARDEN
B.B. RAYBURN CORRECTIONAL CENTER,

Respondent,

On Petition For Writ Of Certiorari
To The United States Court of Appeals
For The Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

ROBERT J. STAMPS

Counsel of Record
Bar # 12393
Supreme Court Bar #74308
1226 Antonine St.
New Orleans, LA 70115
(504)453-4323
bs33pdo@yahoo.com

QUESTION PRESENTED
Whether a pro se filing by petitioner in 2012 to the
District Court, alleging ineffective assistance of counsel
and an invalid plea would deny a second filing by the
petitioner, by counsel; Alleging prosecutorial mis-conduct
in the allotment procedure, filing the matter in the
improper jurisdiction and wonton ineffective assistance of
counsel and denial of a full hearing on these allegations in
the 22nd District Court, St. Tammany Parish, Louisiana.
In contradiction of due process under the 5th and 6th
Amendments applicable to the States under the “Due
Process” clause of the 13th and 14th Amendments.

i

PARTIES TO THE PROCEEDING AND RELATED
CASES
All parties appear in the caption of the case on the
cover page.
 Jessie Shelton v State of Louisiana,
No. 487906, 22nd Judicial District Parish
of St. Tammany, State of Louisiana.
Judgement entered August 29, 2012.


Jessie Shelton v Robert Tanner, Warden
Rayburn Correctional Center, No. 487906
22nd Judicial District Parish of St. Tammany
State of Louisiana. Judgement entered
Apr. 28, 2017.



State of Louisiana v Jessie Shelton,



State of Louisiana v Jessie Shelton,



Jessie Shelton v Robert Tanner, Warden,
Rayburn Correctional Center, No. 19-470,

No. 2017 KW 0749, State of Louisiana Court
of Appeal, First Circuit. Judgement entered
July 25, 2017.
No. N 2017-KP-1389, Supreme Court of
Louisiana. Judgement entered Dec. 17, 2018

United States District Court Eastern District
of Louisiana. Judgement entered August 2,
2019.


Jessie Shelton v Robert Tanner, Warden,
Rayburn Correctional Center, No. 19-470,
United States District Court Eastern District
of Louisiana. Judgement entered June 12,
2019.
ii



Jessie Shelton v Robert Tanner, Warden,
Rayburn Correctional Center, No. 19-470,
United States District Court Eastern District
of Louisiana. Judgement entered August 2,
2019.



Jessie Shelton v Robert Tanner, Warden,
Rayburn Correctional Center, No. 19-30664
United States Court of Appeal for the Fifth
Circuit. Judgement entered June 30, 2020.

TABLE OF CONTENTS
Page
QUESTION PRESENTED…………………………………….i
PARTIES TO THE PROCEEDING …………………..…ii-iii
TABLE OF CONTENTS…………………………………..…iii
TABLE OF AUTHORITIES………………….….…………..iv
STATEMENT OF THE CASE…………..……………..…1-11
CONCLUSION……..…………………………………………12
APPENDIX…………………………………………………….13

iii

TABLE OF AUTHORITIES

Banister v Davis 590 U.S.____(2020)………………………..1
Boykin v Alabama 395 U.S. 238 (1969)………………..…. 3
Alford v North Carolina 400 U.S. 25 (1970)……………….3
State v. Nunez and Liccardi 187 So. 3d 964 ……………… 6
State v. Joe Pedelahore 924 So. 3d 515 (2008)…...… 6,9,10
STATE RULES OF PROCEDURE AND STATUTES
Article 927 Code of Criminal Procedure………………….....2
Louisiana Supreme Court Rules for Criminal Proceedings
in District Courts Rule 14.1………………………………….4
R.S. 14:43.3……………………………………………….…..…4
R.S. 14:78.1………………..………………………………..4,6,8
FEDERAL RULES OF PROCEDURE AND STATUTES
Federal Rule 28 U.S.C. 244(b)……………………………..… 1
United States Constitution 5th, 6th, and 13th
Amendments………………………………………………….8,9

iv

1
STATEMENT OF THE CASE
In Banister v Davis, Texas Department of Criminal
Justice 590 U.S. _____ (2020) decided June 1, 2020,
Justice Kagan joined by C.J. Roberts, Ginsburg, Breyer,
Sotomayer, Gorsuch, and Kavanaugh held that a
state prisoner is entitled to “one fair” opportunity to
seek Federal Habeus relief from his conviction. This
petition by Jessie Shelton is the one fair opportunity
to seek relief U.S.C. 2244(b). The first Pro Se filing
Shelton did in 2012 was directed to Division “D”.
Division “D” was the prosecutorial acquired division.
The request filed in late 2016 by defense counsel on the
allegation of prosecutorial misconduct in the allotment
procedure, the filing and proceeding in the improper
jurisdiction and ineffective assistance of counsel was the
2016 post-conviction relief. Jessie Shelton never received
any proper hearing on the allegations and necessitated
this Writ.
Judge Kurt D. Engelhardt, United States Court of
Appeal Fifth Circuit, in his ruling of June 30, 2020
states that “No jurists of reason would find it debatable
whether the petition states a valid claim of denial of a
constitutional right and jurists of reason would find it
debatable whether the District Court was correct in its
“procedural ruling”.
That procedural ruling did not allow a hearing in that
District Court on the allegation of lack of jurisdiction of
the Court to act, due process violation in the allotment
proceeding, intentional prosecutorial mis-conduct and
wonton ineffective assistance of counsel. The due process
violation in the allotment procedure and the intentional
prosecutorial mis-conduct on proceeding in improper
jurisdiction never received a hearing.
The Ad-hoc Judge Fendelson 22nd Judicial District
Court, a law school classmate, did an alleged hearing on

2
the issues raised but denied a full hearing and forced
supervisory writs to the appellate courts in Louisiana.
First Circuit court of appeals, Certiorari to Louisiana
Supreme Court, the Federal District Court, and the 5th
Circuit Court of Appeals. Interestingly aside at this time,
the elected District of Attorney in St. Tammany Parish
was removed by a Federal conviction and sentenced to
the Federal penitentiary.
Judge Englehardt, 5th Circuit Court of Appeal in his
denial of appealability contended “no reasonable jurist
would allow an appeal on these proceedings”. He assumes
that prosecutorial mis-conduct in the allotment procedure
to acquire the judge they wanted, and the filing in the
improper jurisdiction is not prosecutorial mis-conduct.
Also, the wanton negligence of the paid lawyers who were
not legally aware of the allotment action and the failure
to prosecute in the proper jurisdiction.
Under Article 9271 of the Code of Criminal Procedure
the State, has never filed any procedural objections within
30 days. No objections and no responses from the State
concerning the second post-conviction in 2016 by legal
counsel.
1

Art. 927 Procedural objections: answer
A. If an application alleges a claim which, if established, would entitle
the petitioner to relief, the court shall order the custodian, through
the district attorney in the parish in which the defendant was
convicted, to file procedural objections he may have, or an answer on
the merits if there are no procedural objections, within a specified
period not in excess of thirty days. If procedural objections are timely
filed, no answer on the merits of the claim may be ordered until such
objections have been considered and rulings thereon have become
final.
B. In any order of the court requiring a response by the district
attorney pursuant to this Article, the petitioner to relief, and shall
order a response only as to such claim or claims which, if established
as alleged, would entitle the petitioner to relief.
C. If the court orders an answer filed, the court need not order
production of the petitioner except as provided in Article 930. Added
by Acts 1980, No. 429 1, eff. Jan. 1, 1981.

3
Considering Judge Englehardt finding that no jurist of
reason would find that these two allegations of
prosecutorial mis-conduct would not rise to the level of
requiring a hearing and response to those allegations is
irrational.
The three District Attorneys who were involved in the
episodes are no longer employed in St. Tammany Parish
and Washington Parish.
The District Attorney has never procedurally or on
written objections filed a response. The only response by
the court through Judge Fendalson was on the motion to
return to the original docket in Division I. There was
never a hearing on the procedural and prosecutorial misconduct by the District Attorney’s office. This was the
District Attorney’s office in which the elected District
Attorney was sentenced to Federal Penitentiary for misconduct.
There has never been a hearing on the allegations in
post-conviction relief the Defendant filed Pro Se in 2012;
his allegations were ineffective assistance of counsel and
non-voluntary plea. According to Boykin v Alabama 395
U.S. 238 (1969) and Alford v North Carolina 400 U.S. 25
(1970) the Division D Judge was correct in denying his
post-conviction relief. However, the correct Division was
Division I.
This writer is aware of that because he had a similar
case in the United States Supreme Court for Harlin Glen
Lay, dealing with a nolo contendere plea. This writer was
contacted by the Attorney General of Florida and
requested to withdraw his Writs and “We, Florida”, will
give immediate Parole. This they did. This writer is
constantly aware that the 1st Pro Se post-conviction relief
Shelton filed was properly denied. However, the 2nd postconviction involved (2) allegations of prosecutorial
misconduct and ineffective assistance of counsel. The
private counsel was not aware of the procedural misconduct that is wonton ineffective assistance of counsel.

4
The second post-conviction relief concerned the (3) errors,
(2) prosecutorial mis-conduct, (1) ineffective assistance of
counsel.
Shelton was charged with aggravated incest R.S.
14:78.1 and arrested between Jan. 1, 2010 and Jan. 10,
2010. Arrests between Jan.1 through Jan 10, 2010 were
allotted to Division I. Record reflects that on Jan. 8, 2010,
the aggravated incest bill was allotted to Div. I. Later, on
March 16, 2010, Jessie Shelton was additionally charged
with aggravated rape, on an alleged different victim.
There was no indictment for aggravated rape.
This was confused by Judge Fendalson in that the
defense was attempting to recuse Division “D”. This was
not true. Defense argued that Division “D” should have
never been involved in the Shelton matter. The new
charge was a fraudulent attempt to move the matter from
Division “I” to Division “D”. As it turned out the Count 2
was dismissed thereby proving that the aggravated incest
should have remained in Division “I”.
Aggravated rape requires an indictment by a grand jury.
That proceeding number was 75-51679. Since there was
no indictment the petitioner was then charged with oral
sexual battery R.S. 14:43.3. According to the allotment
rules of the Supreme Court Rule 14.1.2
According to the rule of the Supreme Court the oral
sexual battery charge should have allotted to Div. I.
There was no indictment so therefore no special
allotment.
In Div. D the count two in the proceeding he was
represented by a public defender. Count one was
represented by private counsel. Counsel on count two
filed a motion to quash which was granted. Private
2

Allotment-Defendant with more than one felony case:
(a)Unless or differed method is set forth in appendix 14.1. If
defendant has a felony case pending and previously allotted, any new
felony arrest for the defendant shall be allotted to the division in
which the pending felony was allotted. Exsequor.

5
counsel on count one did not file a motion to transfer to
Div. I. Petitioner contends there was ineffective
assistance of counsel and also prosecutorial misconduct in
this regard. That was a fraudulent use of the charge that
did not exist in 1983. The court had to grant the motion
to dismiss.
The petitioner was charged with aggravated incest
from Sept. 2003 through June 30, 2007. Petitioner alleges
that any crimes allegedly committed between Sept. 01,
2003 through Sept. 2004 would have occurred in
Bogalusa, Washington Parish. St. Tammany Parish did
not have jurisdiction over those crimes if they existed.
The state intentionally included Sept. 01, 2003
through Sept. 2004 because in 2003 the victim would have
been 14 years of age. If these crimes existed they should
have been prosecuted in Washington Parish.
Petitioner re-urges the ineffective assistance of counsel
because private counsel did not raise this issue.
Petitioner re-urges prosecutorial misconduct because the
State knew or should have known. Their actions were
fraudulent.
These two issues are due process issues. Petitioner’s
due process rights were violated necessitating a new trial
and overturn of the conviction.
In the petition for Post-Conviction Relief, the
petitioner argued that on an exhibit showing the
allotment for the week of Jan 2010, Div. I was the proper
Division. In 2010 between the dates of Jan. 1 through
Jan. 10 the aggravated incest was allotted to Div. I. Any
new felony charge should have followed to Div. I. The
State alleged aggravated rape on a new charge but there
was never a random allotment for that charge. The State
alleged aggravated oral sexual battery occurred in 1983.
There was no such statute in 1983. In Div. D, the public
defender filed a motion to quash which was granted.
There was no legal machination for Div. D to handle the
aggravated incest charge other than the States desire to
have Div. D handle the matter, their Judge. The private

6
attorneys representing the petitioner did not request the
removal to Div. I, which is the proper Division to handle
the matter.
This action by the state violated a recent decision by
the Louisiana Supreme Court; State vs. Nunez and
Liccardi 187 so. 3d 964. The intended manipulation by
the State creates a due process violation, which makes
this conviction a nullity.
The recent argument of the improper venue delineated
in the petition for post-conviction, creates a nullity
because of the violation of the lack of jurisdiction.
Petitioner re-urges the allegations of prosecutorial
misconduct by the State; another violation of due process.
Petitioner also alleges ineffective assistance of counsel.
Petitioner demands a response by the State and since
more than 90 days have elapsed, post-conviction should be
granted.
Petitioner alleges this matter should be returned to
Div. I. Div. H, in the recusal states that a random
allotment was ordered and the re-allotment was to Div. D.
Petitioner requests that this motion be filed and the
State should show cause why post-conviction should not
be granted; the defendant should be ordered to be present
in these proceedings.
The August 5, 2010 motion to quash on the oral sexual
battery was an entirely different person, which was a
crime that supposedly took place in 1983. Robert J.
Stamps filed the motion to quash; he was the public
defender in Division D. On the he aggravated incest
charge RS 14:78.1, Shelton was represented by a private
attorney.
The aggravated rape charge was an attempt to remove
the charge from Judge Badeaux’s Division “I” to Division
“D”. The District Attorney had done this in another
matter. See State v. Joe Pedelahore 895 So. 2d 77.
Shelton’s private attorney plead the defendant guilty
in Div. “D”. His attorney did not realize that the matter
should have been relocated back to Judge Badeaux’s

7
Division “I”. This was prosecutorial misconduct by the
District Attorney’s office, to seek the section of court that
they considered to be favorable to them.
The proceeding allegations were not in the original
2012 post -conviction relief that was filed Pro Se in the
District Court. The 2nd post -conviction attorney
requested that the matter be returned back to the original
Division “I”, Judge Badeaux’s Division. The defendant
never received a hearing on his original allegations.
Defendant was forced to file in the 1st Circuit Court of
Appeal; then the Supreme Court of Louisiana, Federal
District Court and then Fifth Circuit. Defendant has
never received an evidentiary hearing.
Shelton’s private attorney, on the RS 14.78.1 charge,
did not seek reconsideration of sentence or direct appeal.
His private attorney was derelict of duty. Defendant in
2012 in proper person filed a post -conviction petition on
the ineffective assistance of counsel. That was denied by
Division “D” of the District Court.
In 2016, through counsel Robert J. Stamps, who no
longer worked for the Public Defender’s office, filed a post
-conviction petition alleging that the Division “D” was not
the proper section; Judge Badeaux’s Division “I” was the
proper section. This action by the District Attorney’s
Office was prosecutorial misconduct and a violation of the
due process clause of the 13th, 14th, 5th and 6th
amendments of the United States Constitution.
Prosecutorial misconduct, because the D.A.s office
considered Judge Badeaux’s Division “I” unfavorable and
Judge Garcia’s Division “D” favorable to their desires.
Private counsel who represented the defendant on
Count 1, did not file to remove back to Judge Badeaux’s
Division. That action was ineffective assistance of
counsel. The issues of ineffective assistance of counsel in
conjunction with the prosecutorial misconduct of the D.A.,
were never raised in the post -conviction filed in 2012, in
proper person by Jessie Shelton.

8
The Federal District Court New Orleans Magistrate
Wilkinson, in his report, states that on May 10, 2010 the
defendant was charged with aggravated incest and oral
sexual battery on his daughter. That statement is not
true. In Count 1, Defendant was charged with R.S.
14:78.1, with the victim being 14 years old. In Count 2,
he was charged with oral sexual battery on another
person in 1983. In Count 2, he was represented by Robert
Stamps who was the Public Defender in Division D. Jessie
Shelton was arrested in early 2010 on the RS 14:78.1
involving his daughter. On that he was represented by
private counsel and he and counsel appeared in Judge
Badeaux’s Division I of Court. Later in 2010, defendant
was arrested for aggravated rape on another person in
1983. In count 2, Robert J. Stamps the Public Defendant
filed a motion to quash. That was granted. The District
Attorney’s office only filed the bogus Count 2 so that the
District Attorney Joseph Obre, Julie Miramond Knight
and Alonzo could remove the matter to Division D. These
actions were a violation of the defendant’s rights under
the 5th and 6th amendment of the U.S. Constitution
applicable to the State under the 13th and 14th
amendments of the U.S. Constitution.
Defendant retained counsel to file motion to return the
matter to the assigned Division I, Judge Badeaux’s
Division. If counsel did not file the recusal motion to
return the matter to the original Division, counsel would
be accepting what the District Attorney’s office had done
as correct and legal. On May 3, 2017 a hearing in
Division H improperly applied the law. Jessie Shelton
was never given a hearing of his post -conviction petition.
Counsel was obligated to seek review of the decision of
Division H Judge. The matter went to the 1st Circuit
court of appeals. The Writs were denied. Writs were
taken to the Louisiana Supreme Court.
Jessie Shelton did not have legal counsel after his
conviction. His two private attorneys did not seek motion
to reconsider sentence nor appeal. They did not do

9
anything for Jessie Shelton between September 30, 2010,
and September 30, 2011.
Robert J. Stamps was contacted in October 2016. An
application for post -conviction was filed. The only prior
contact Robert Stamps had with Jessie Shelton was being
the Public Defender in Division D on the Count 2
allegations in the bill of information. Robert Stamps had
no contact with defendant until contacted in October 2016
to retain his services.
This counsel, Robert J. Stamps was aware of the
machinations of the District Attorney’s office. In a prior
case handled by this counsel, the District Attorney’s office
wanted the Joel R. Pedelahore moved from Division G
because they did not consider this the Judge they wanted.
In case State v Joe Pedelahore 337-850, 337-851, they
acquired fraudulent Grand Jury indictments. A Grand
Jury indictment under the rules would require all other
cases to follow the aggravated rape to Division D, their
favorable Judge. After the Public Defender in cases 337852, 334-519, 333-010, 329-016, had gone to trial with
case 337-852, molestation of a juvenile and aggravated
oral sexual battery. There was a conviction. Then the
State through the District Attorney’s office NOL PROS
the two aggravated rape indictments. This would create
the concept that they had only gotten the hearsay
indictment to re-allot the matter from Division G to
Division D.
In Jessie Shelton matter, the District Attorney’s office
used the same machination to remove the matter from
Division I to Division D. The only difference was there
was no indictment for the aggravated rape which would
have allowed a new allotment under the law. There never
was an aggravated rape indictment with Jessie Shelton.
This counsel took no part in defendants defense on count
1. Jessie Shelton had private counsel. This writer was
Public Defender representing defendant on count 2 which
was Quashed.

10
Defense counsel at the age of 62 years old began
working as public defender in Division “D” in St.
Tammany and Washington Parishes. This was April
1996. In January 1997, a new Judge was elected
From that date in 1997 to the beginning of 2013, this
writer worked that Division, Division “D”, and was aware
of the District Attorney manipulations of and preferences
for that Division. This writer was aware that the District
Attorneys were manipulating the docket to move the
Shelton matter into Division “D”. The correct docket was
Division “I”. Any new charges would follow into Division
“I”. The District Attorney had no legal authority to
transfer to Division “D”. This writers only action as the
public defender was to quash the alleged crime in 1983,
because there was no statute in the Shelton matter. This
action by the District Attorney’s office formed the basis of
the prosecutorial mis-conduct and the allotment process.
It was later determined that the crime in 2003 and 2004
should have been prosecuted in Washington Parish and
not St. Tammany Parish. They are two separate
Jurisdictions, they have two separate District Attorney’s
offices. These allegations formed the basis of the second
filing for post-conviction relief. The allegations of
prosecutorial misconduct in the allotment procedure,
jurisdictional manipulations by the District Attorney’s
office, and the ineffective assistance of counsel in not
being aware of these manipulations.
This writer worked in Division “D” as the public
defender, and witnessed many cases where these same
machinations were applied. The Joe Pedelahore case
where fraudulent indictments were obtained and this
public defender had to represent a very young while male
(crack user), who was charged with armed robbery with a
BB gun. In the armed robbery he was identified by a high
school girl friend. The State demanded a plea and 30
years; two other defendants pled to 10 years. After the
jury was chosen, defense counsel requested a bench
conference to offer the State a plea to 20 years. The

11
minute clerk in that division began calling the Assistant
District Attorney, Joey Obre, a “pussy” if he allowed the
plea. Defense counsel knew the defendant was made. At
a bench conference the next morning he offered a plea to
25 years. This was refused. They knew the jury would
find him guilty. He was found guilty and sentenced by
the Judge to 30 years. The District Attorney’s office filed a
triple bill. The defendant was sentenced to 99 years flat.
In 2011 a person from the French Parishes was
indicted for anal aggravated rape of a 6-year-old boy.
This matter was tried with this writer as defense counsel.
The jury found the defendant not guilty. The Judge and
the court were not happy. In fact, when the defendant left
the stand he told the jury he was not guilty. The judge
wanted to hold him in contempt.
In 2012 this writer had to defend a 19-year-old white
young man. He was indicted for the murder of his
girlfriend’s child. The public defender hired a world class
forensic pathologist (who performed the autopsy’s in the
1989 crash of the Korean Airline), he cost the public
defender’s office $8500. His evaluation was that the child
died of seizures. He so testified in the jury trial. The
corner under cross examination admitted the matter was
not a homicide until he was told of a confession. This
public defender had requested the defendant and his
family to report to the FBI the acquiring of the confession.
They did not, the public defender contacted the FBI. If a
citizen knows of a crime, the citizen is required to act.
The defendant was convicted and sentenced to life in
prison. The public defender was removed from Division
“D” at the end of 2012. The chief public defender was
replaced; He told this public defender you are now gone.

12
CONCLUSION
It is evident from this Writ the writer for Jessie
Shelton was a witness to the actions of the prosecution.
Writer requests a reversal of the conviction and the
ordering of a new trial.
Jessie Shelton has been incarcerated since August
2010. If this court takes no action he will be in jail until
2029. Sex offenders receive no good time. It is doubtful if
he will ever receive parole.
Jessie Shelton requests that these illegal convictions
be over turned and he be released.
Respectfully Submitted.
ROBERT J. STAMPS

Counsel of Record
Bar # 12393
Supreme Court Bar #74308
1226 Antonine St.
New Orleans, LA 70115
(504)453-4323
bs33pdo@yahoo.com

